No.

3ftt TEhe

ifmtpreme Court of the tianiteb ikateo
THE CHURCH OF JESUS CHRIST OF LATTERDAY SAINTS, SERVANT:
XIU JIAN SUN, THE SPIRITUAL ADAM
Petitioners,
v.
Lawyers: MICHAEL P. KELLY, ESQ; JAMES P.
CONNORS, ESQ; CHARLES T. GURAESQ; ANGELA
M. EVANGELISTA, ESQ. MARSHALL DENNEHEY
WARNER COLEMAN & GOGGIN
Respondents.
v.
CHRISTOPHER J. BAUM & THOMAS BAILEY,
BAUM & BAILEY, P. C.
Respondents.
On Petition for Writ of Certiorari to the
State of New York Court of Appeals
BRIEF FOR PETITIONER
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
54-25 153rd St.,
Flushing, NY 11355
646-675-0308
Counsel for Petitioner

RECEIVED
DEC 1 0 2019
CRINWORS4--Er

1

QUESTION(S) PRESENTED

Lord god of host sent the messenger through angel
said to spiritual Adam: "take him (her) to the
law to confront it." Mit (t,)
That the civil magistrate should restrain crime,
but never control conscience; but punishing
guilt, but never suppress the freedom of the
soul. MR-LE TPLIPAIJIE. Fr, 'EMT ,71, 1 1154.ib;
filMTTRZE.M.RA tit M E13).
Jahovah, - the Lord of the host, sent the messenger
said to servant: "Secret gang organization." (V'
5ICR _CM)
Jehovah, - the Lord god of host gives the words to
servant (Plaintiff) in the temple he made, "Trial
with god's law. Apply for jury to prevent insult
and unfair behavior."
A Book of Doctrine and Covenants Section 101
81) Now, unto what shall I liken the children of Zion? I
will liken them unto the parable of the woman and
the unjust judge, for men ought always to pray and
not to faint, which saith—

11

There was in a city a judge which feared not God,
neither regarded man.
And there was a widow in that city, and she came
unto him, saying: Avenge me of mine adversary.
And he would not for a while, but afterward he said
within himself: Though I fear not God, nor regard
man, yet because this widow troubleth me I will
avenge her, lest by her continual coming she weary
me.
Thus will I liken the children of Zion.
Let them importune at the feet of the judge;
And if he heed them not, let them importune at the
feet of the governor;
6. On the date of October 22nd, 2019, send to Mr.
Andrew M. Cuomo, the incumbent Governor of
New York State, NYS State Capitol Building,
Albany, NY 12224, by registered mail and return
receipt. (BRIEF FOR PLAINTIFF-APPELLANT)

111

LIST OF PARTIES

Petitioner:
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam

Respondent:
Lawyers:
Michael P. Kelly, Esq;
James P. Connors, Esq;
Charles T. Gura, Esq;
Angela M. Evangelista, Esq.
Marshall Dennehey Warner Coleman & Goggin

Christopher J. Baum,
Thomas Bailey,
Baum & Bailey, P. C.

iv

Apply for a Mandarin
Chinese interpreter

Clerk's Office:
I

( Servant) Petitioner would like to request a

Mandarin Chinese court interpreter for my appeal
court day.
Thank you.
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam

V

TABLE OF CONTENTS

QUESTION(S) PRESENTED
LIST OF PARTIES

iii

Apply for a Mandarin Chinese interpreter

iv

JURISDICTION:
State of New York Court of Appeals (Decided
and Entered 10/14/2019)

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

6

INDEX TO APPENDICES
Appendix A:
State of New York Court of Appeals
(Letter from State of New York Court of
Appeals August 5, 2019)

Al

vi

Appendix B:
Supreme Court of the State of New York
Appellate Division: First Judicial
Department: (2017-301088 (9867-9868)
Decision & Order)

B1

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Doctrine and Covenants Section 20
Revelation on Church organization and government,
given through Joseph Smith the Prophet, at or near
Fayette, New York. Portions of this revelation may
have been given as early as summer 1829. The
complete revelation, known at the time as the Articles
and Covenants, was likely recorded soon after April 6,
1830 (the day the Church was organized). The Prophet
wrote, "We obtained of Him [Jesus Christ] the
following, by the spirit of prophecy and revelation;
which not only gave us much information, but also
pointed out to us the precise day upon which, according
to His will and commandment, we should proceed to
organize His Church once more here upon the earth."
1). The rise of the Church of Christ in these last days,
being one thousand eight hundred and thirty years
since the coming of our Lord and Savior Jesus Christ
in the flesh, it being regularly organized and
established agreeable to the laws of our country, by the
will and commandments of God, in the fourth month,
and on the sixth day of the month which is called
AprilThe Doctrine and Covenants Section 42
83). And thus ye shall do in all cases which shall come

before you.
And if a man or woman shall rob, he or she shall
be delivered up unto the law of the land.
And if he or she shall steal, he or she shall be
delivered up unto the law of the land.
And if he or she shall lie, he or she shall be
delivered up unto the law of the land.
And if he or she do any manner of iniquity, he or
she shall be delivered up unto the law, even that of
God.
And if thy brother or sister offend thee, thou shalt
take him or her between him or her and thee alone;
and if he or she confess thou shalt be reconciled.
And if he or she confess not thou shalt
deliver him or her up unto the church, not to the
members, but to the elders. And it shall be done in
a meeting, and that not before the world.
And if thy brother or sister offend many, he or she
shall be chastened before many.
And if any one offend openly, he or she shall be
rebuked openly, that he or she may be ashamed.
And if he or she confess not, he or she shall be
delivered up unto the law of God.

4

STATEMENT OF THE CASE

Jehovah, the Lord god of host, sent the son of god,
(the revived Messiah) from God's temple gave
words to servant, said: "Pharisees not even move
his one finger". ( IJ4nA—t-T-IVAWFT -4)
The Lord god Jehovah sent the messenger, said to
spiritual Adam through the angel, 'unjust judge'.
(TIL:ErAt")
The lord god of hosts sent the messenger to the
spiritual Adam through angel, saying. "The
Pharisees have appropriated widow's
possessions". (MMAff.XP9rhim-m
The Lord god of hosts sent messenger speaks to
spiritual Adam- plaintiff, through the angel, says:
`Pharisees even swallowed dead people's
bones'. (VI.MA3VLAn'Ukt-FrliT t)

5
REASONS FOR GRANTING THE WRIT

After ruling by the Small Claim Court, these are
the works given by Israeli God from Lord's temple,
"The civil magistrate should restrain crime, but never
control conscience, should punish guilt, but never
suppress the freedom of the soul." (ZurfaVesp-Ajimr,--,
MISZONE, MATTITEMETRAtt M

6
CONCLUSION

The Doctrine and Covenants Section 42
If any shall offend in secret, he or she shall be
rebuked in secret, that he or she may have
opportunity to confess in secret to him or her
whom he or she has offended, and to God, that the
church may not speak reproachfully of him or her.
And thus shall ye conduct in all things.

Dated: Queens, New York
November 3, 2019
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
Xiu Jian Sun, the spiritual Adam
54-25 153rd St
Flushing, NY 11355
(646) 675-0308
Plaintiffs

